         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report




       EPA’s Small Business
       Innovative Research Awards
       Should Include Additional
       Certifications to Reduce Risk
       Report No. 11-N-0199

       March 30, 2011
Report Contributors:                              Janet Kasper
                                                  Madeline Mullen
                                                  Nicole Pilate
                                                  Matthew Simber




Abbreviations

CIGIE        Council of Inspectors General for Integrity and Efficiency
EPA          U.S. Environmental Protection Agency
OIG          Office of Inspector General
ORD          Office of Research and Development
SBIR         Small Business Innovative Research
                       U.S. Environmental Protection Agency 	                                              11-N-0199
                                                                                                       March 30, 2011
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review	          EPA’s Small Business Innovative
The Council of Inspectors
                                 Research Awards Should Include
General for Integrity and        Additional Certifications to Reduce Risk
Efficiency (CIGIE) suggested
a series of certifications be     What We Found
included in Small Business
Innovative Research (SBIR)       Our review of EPA’s SBIR solicitations and contracts found that EPA has
awards government-wide. The      certifications and contract clauses that address many of the CIGIE concerns.
Office of Inspector General      However, EPA would benefit from two additional certifications CIGIE suggested.
reviewed the U.S.                EPA does not require awardees to submit a certification against false statements
Environmental Protection         when submitting the proposal. EPA also does not require a certification with the
Agency (EPA) SBIR                final report that addresses, among other items, that the report statements are true
solicitations and contracts to   and completed. We believe that the risks CIGIE identified would be significantly
determine whether EPA            mitigated if EPA added these certifications to its SBIR program.
included those certifications.
                                  What We Recommend
Background
                                  We recommend that the Assistant Administrator for Research and Development
The SBIR program provides         add a certification statement to the current requirements SBIR funding applicants
incentive funding to small        must submit prior to award and require SBIR funding recipients to submit a
businesses to translate their     certification statement with their final reports.
innovative ideas into
commercial products that          In response to the draft report, EPA concurred with our recommendations. In
address environmental             2010, the Office of Research and Development required the signed certification
problems.                         for phase 2 contracts prior to award and at the time of the final report. For March
                                  2012 solicitations and thereafter, EPA has agreed that signed certifications will be
                                  required for phase 1 contracts prior to award and at the time of the final report.
                                  Also, a new certification will be added to phase 1 and 2 contracts for signature
                                  prior to final report issuance.

For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110330-11-N-0199.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                             THE INSPECTOR GENERAL




                                          March 30, 2011

MEMORANDUM

SUBJECT:	              Special Report:
                       EPA’s Small Business Innovative Research Awards
                       Should Include Additional Certifications to Reduce Risk
                       Report No. 11-N-0199


FROM:                  Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Paul Anastas
                       Assistant Administrator for Research and Development


This is our report on the subject review conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $6,955.

Action Required

In accordance with EPA Manual 2750, we are closing this report on issuance in our tracking
system. The agreed-to milestones for each recommendation are required to be tracked in the
Management Audit Tracking System until the corrective actions are complete. While a formal
response to the final report is not required, we request that you provide us with documentation of
the policies and procedures that you prepare and issue in response to this report. We have no
objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist
at 202-566-0899 or heist.melissa@epa.gov, or Janet Kasper at 312-886-3059 or
kasper.janet@epa.gov.
EPA’s Small Business Innovative Research Awards                                                                                11-N-0199
Should Include Additional Certifications to Reduce Risk


                                      Table of Contents 

   Purpose........................................................................................................................         1


   Background .................................................................................................................            1


   EPA’s SBIR Award Certifications Need Improvement ............................................                                           2


   Recommendations ......................................................................................................                  3


   Agency Response and OIG Comments ....................................................................                                   3


   Status of Recommendations and Potential Monetary Benefits..............................                                                 5




Appendices
   A       Certification for Use With Proposal Submissions ..........................................                                      6


   B       Certification for Final Reports...........................................................................                      7


   C       Agency Response ..............................................................................................                  8


   D       Distribution .........................................................................................................     12

Purpose
            The Council of Inspectors General on Integrity and Efficiency (CIGIE), Research
            Misconduct Working Group, met in December 2009 to discuss fraud in the Small
            Business Innovative Research (SBIR) program. CIGIE contacted inspectors
            general from SBIR-funding agencies across the government and asked them to
            assess and recommend how SBIR award certifications can be improved to prevent
            and prosecute fraudulent use of these funds. The U.S. Environmental Protection
            Agency (EPA), Office of Inspector General (OIG), reviewed EPA’s SBIR
            solicitations and contracts to determine whether they contain the certifications
            CIGIE recommended.

Background
            EPA is one of 11 federal agencies that participate in the SBIR program
            established by the Small Business Innovation Development Act of 1982. The
            purpose of the act was to strengthen the role of small businesses in federally
            funded research and development, and help develop a stronger national base for
            technical innovation. Through the SBIR program, small businesses can translate
            their innovative ideas into commercial products that address environmental
            problems.

            EPA awards SBIR contracts in two phases. In the fiscal year 2010 solicitation,
            EPA stated it would award about $2.8 million in phase I contracts, which cannot
            exceed $80,000 each, and the term of performance is not to exceed 6 months. In
            the fiscal year 2009 solicitation, EPA stated it would award about $2 million in
            phase II contracts, at approximately $225,000 per contract and a performance
            period of 24 months. Only contractors (i.e., recipients) who completed a phase I
            contract may apply for phase II funding.

            The CIGIE Research Misconduct Working Group met to discuss fraud in the
            SBIR program government-wide. CIGIE was concerned about the potential for a
            firm to be funded by more than one federal agency for the same research. To
            mitigate these concerns, CIGIE recommended that SBIR agencies include specific
            certifications at various stages in the SBIR process.

            Certifications that accompany federal funding awards provide two main benefits:
            they act as a deterrent, and they bolster enforcement efforts. As a deterrent,
            certifications force applicants to consider what they are submitting and attesting
            to, possibly deterring them from certifying falsely. Certifications bolster
            enforcement efforts because they facilitate prosecution of recipients if fraud is
            committed.




11-N-0199                                                                                        1
EPA’s SBIR Award Certifications Need Improvement
            Our review of EPA’s SBIR solicitations and contracts found that most of the
            CIGIE concerns were addressed. However, EPA would benefit from two
            additional certifications that CIGIE suggested. EPA does not require awardees to
            submit a certification against false statements when submitting the proposal.
            EPA also does not require a certification with the final report that addresses,
            among other items, that the report statements are true and completed. We believe
            that the risks CIGIE identified would be significantly mitigated if EPA added
            these certifications to its SBIR program

            To address the concerns it had identified with the SBIR program, CIGIE
            recommended a set of certifications that should accompany each SBIR award.
            CIGIE proposed seven certifications that it identified in National Science
            Foundation SBIR awards, payments, or reports. Each SBIR funding applicant and
            recipient is to:

                   1.	 Disclose other federal agencies to which the proposal was submitted
                   2.	 Certify that it is indeed a small business concern as defined in the
                       solicitation
                   3.	 Certify that the firm will perform the required percentage of work in
                       each of the phases of research (two-thirds for phase I awards)
                   4.	 Certify that the primary employment of the principal investigator will
                       be with firm at the time of award and during the period of research
                   5.	 Certify that the statements in its proposal are true, with knowledge that
                       providing false information in the application, supporting
                       documentation, or required reports is a criminal offense
                   6.	 Recertify with the first payment request in regards to the principal
                       investigator, small business concern, and that overlapping proposals
                       with other federal agencies have been withdrawn
                   7.	 Certify with the final product that statements are true and complete
                       and the original work of the principal investigator

            The EPA SBIR solicitations contain a proposal cover sheet that is required for all
            SBIR applicants. This proposal cover sheet prompts the applicant to disclose any
            other federal agencies to which it submitted the proposal. The proposal cover
            sheet also requires the applicant to certify that it is a small business concern as
            defined in the solicitation and that it will perform the required percentage of work
            under the contract. These certifications in the proposal submission address three
            of the certifications CIGIE suggested.

            While EPA’s SBIR solicitations do not address employment of the principal
            investigator, the Agency’s phase I and II contracts specifically discuss this topic.
            In both phases of research, the SBIR contract contains the specific requirement
            that the principal investigator’s primary employment must be with the contracted
            firm during the performance of the contract, unless approved in writing by the


11-N-0199                                                                                          2
            EPA contracting officer. This contract clause addresses the fourth concern CIGIE
            raised.

            CIGIE also suggested reiterating the certifications with the recipient’s initial
            request for payment. We determined that such a requirement was not necessary,
            and EPA agreed. EPA’s SBIR phase I and II recipients must report monthly and
            submit an invoice with each monthly report. Since only 30 days will have passed
            between the signing of the contract and the initial request for payment, we
            concluded that the certification with the initial payment request is not necessary.

            EPA was not using the remaining two certifications that CIGIE recommended to
            mitigate risks to EPA funds and programs. Specifically, we believe that EPA
            should require each SBIR applicant to sign a certification as part of its proposal
            submission and again as part of the final report. This certification will accomplish
            the goals of fraud deterrence and assist in prosecutions, when necessary. We
            provide an example of the certification form for use with proposal submissions in
            appendix A and an example of the certification form for use with final reports in
            appendix B.

            During our review, we also learned that EPA’s National Center for Environmental
            Research is currently reviewing the Agency practice of awarding SBIR funding
            through contracts as opposed to assistance agreements. The OIG shares an interest
            in this aspect of SBIR funding, as many other federal agencies award SBIR
            funding through assistance agreements, most notably the National Science
            Foundation. Once the National Center for Environmental Research completes its
            review, we ask that the office share the results and any intended actions and
            implementation dates regarding the funding vehicle the program will use.

Recommendations
            We recommend that the Assistant Administrator for Research and Development:

                   1.	 Add the certification statement provided in appendix A to the current
                       requirements that SBIR funding applicants must submit prior to award.

                   2.	 Require SBIR funding recipients to submit the certification statement
                       provided in appendix B with their final reports.

Agency Response and OIG Comments
            EPA agreed with our recommendations. In 2010, the Office of Research and
            Development required the signed certification for phase 2 contracts prior to award
            and at the time of the final report. For March 2012 solicitations and thereafter:

                   	 Signed certifications will be required for phase 1 contracts prior to
                      award and at the time of the final report.


11-N-0199                                                                                         3
                   	 A new certification will be added to phase 1 and 2 contracts for
                      signature prior to final report issuance.

            The response addresses the recommendations and provides a timeframe for
            completing the actions.




11-N-0199                                                                                4
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                               Planned
    Rec.    Page                                                                                              Completion   Claimed    Agreed To
    No.      No.                          Subject                         Status1      Action Official           Date      Amount      Amount

     1        3     Add the certification statement provided in             O       Assistant Administrator   03/31/2012
                    appendix A to the current requirements that SBIR                  for Research and
                    funding applicants must submit prior to award.                       Development

     2        3     Require SBIR funding recipients to submit the           O       Assistant Administrator   03/31/2012
                    certification statement provided in appendix B with               for Research and
                    their final reports.                                                 Development




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-N-0199                                                                                                                                         5
                                                                                             Appendix A

      Certification for Use With Proposal Submissions

Proposed language1 to be included in the certification as a part of each SBIR applicant’s proposal
submission:

          The contractor [or appropriate term] certifies that:
               (1) the principal investigator and the small business firm have not accepted
           funding for the same or overlapping work except as stated in the underlying
           proposal;
                (2) all proposals describing the same or overlapping work have been withdrawn
           from other agencies;
                (3) the primary employment of the principal investigator is with this firm at the
           time of the award and will continue during the conduct of the research;
                (4) the contractor [or appropriate term] is a small business as defined in the EPA
           SBIR Solicitation under which the contractor [or appropriate term] submitted its
           proposal, and the principal investigator is an employee of the firm and is currently
           available to perform the proposed work; and
               (5) the undersigned understands that willfully making a false statement to or
           concealing a material fact from EPA is a criminal offense (U.S. Code, Title 18,
           Section 1001).


Authorized Company Officer: 

Signature: ____________________________                            Date: _______________________ 



Principal Investigator: 

Signature: ____________________________                            Date: _______________________ 





1
 This language is taken from the example document CIGIE provided. The example document included the current
certifications the National Science Foundation uses. We modified the certification to reference EPA.


11-N-0199                                                                                                     6
                                                                                             Appendix B

                        Certification for Final Reports

Proposed language2 to be included in the certification as a part of each SBIR applicant’s final
report:

                I certify that the Principal Investigator currently is _ is not _ “primarily
                employed” by the contractor organization as defined in the SBIR Solicitation.

                I certify that the work under this project has _ has not _ been submitted for
                funding to another Federal agency and that is has _ has not _ been funded under
                any other federal grant, contract, or subcontract.

                I certify that to the best of my knowledge the work for which payment is hereby
                requested was performed in accordance with the award terms and conditions and
                that payment is due and has not been previously requested.

                I certify that to the best of my knowledge (1) the statements herein (excluding
                scientific hypotheses and scientific opinions) are true and complete, and (2) the
                text and graphics in this report as well as any accompanying publications or
                other documents, unless otherwise indicated, are the original work of the
                signatories or individuals working under their supervision.

                I understand that the willful provision of false information or concealing a
                material fact in this report or any other communication submitted to EPA is a
                criminal offense (U.S. Code, Title 18, Section 1001).


Authorized Company Officer: 

Signature: ____________________________                            Date: _______________________ 



Principal Investigator: 

Signature: ____________________________                            Date: _______________________ 





2
 This language is taken from the example document CIGIE provided. The example document included the current
certifications the National Science Foundation uses. We modified the certification to reference EPA.


11-N-0199                                                                                                     7
                                                                                       Appendix C

                                 Agency Response
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                            MAR 14 2011

                                                                                 OFFICE OF

                                                                         RESEARCH AND DEVELOPMENT

MEMORANDUM

SUBJECT:       Office of Research and Development (ORD) Response EPA's Small Business
               Innovative Research Awards Should Include Additional Certifications to Reduce
               Risk, Project No. OA-FY2010-0233

FROM:          Paul T. Anastas
               Assistant Administrator
               Office of Research and Development

TO:            Melissa Heist
               Assistant Inspector General Office of Audit

        Thank you for the opportunity to comment on the Office of Inspector General (OIG) draft
audit report, EPA's Small Business Innovative Research Awards Should Include Additional
Certifications to Reduce Risk (Project No. OA-FY2010-0233), dated February 1, 2011. The
report is accurate and keeping with the recent initiatives to address fraud, waste, and abuse in the
Small Business Innovative Research (SBIR) Program. The OIG's recommendations will help
reduce the risk of fraud, waste, and abuse in the SBIR Program.

        Recommendation 1: "Add the certification statement provided in Appendix A to the
current requirements SBIR funding applicants must submit prior to award." ORD generally
agrees with this recommendation. ORD has developed a certification that was modeled after the
National Science Foundation (NSF) certification. In 2010, ORD required the signed certification
for Phase 2 contracts prior to award and at the time of the final report. Appendix A of the draft
audit report does not reference this certification, so we have included a copy of the certification
(K.7) in this memorandum (see Attachment 1). To fully address the recommendation, ORD will
now also require a signed certification for Phase 1 contracts prior to award.

        Planned completion date: Prior to making SBIR awards resulting from the March 2012
solicitations and solicitations thereafter.




11-N-0199                                                                                            8
        Recommendation 2: "Require SBIR funding recipients to submit the certification
statement provided in Appendix B with their final reports." ORD generally agrees with this
recommendation. ORD will develop a new certification statement that will be added to Phase 1
and Phase 2 contracts. ORD will require signed certifications by the awardees prior to their final
report.

        Planned Completion Date: Final Reports issued resulting from the March 2012
solicitation and solicitations thereafter.

        Please find a summary table of ORD's corrective actions and associated projected
completion dates (see Attachment II). If you have any questions, please contact Norman Adkins
at (919) 541-0872.

Attachments

cc: 	   Craig Hooks (OARM)
        Janet Kasper (OIG)
        Lek Kadeli (ORD)
        Kevin Teichman (ORD)
        William Sanders (ORD)
        Christopher Zarba (ORD)
        Amy Battaglia (ORD)




11-N-0199                                                                                        9
Attachment I


K.7 Certification


Submission of this certification is required prior to contract award and with the final report:



The contractor certifies that.-

       1.	 The principal investigator and the small business firm have not accepted funding for
           the same overlapping work except as stated in the underlying proposal;
       2.	 All proposals describing the same or overlapping work have been withdrawn from
           other agencies;
       3.	 The primary employment of the principal investigator is with the firm at the time of
           the award and will continue during the conduct of the research;
       4.	 The awardee is a small business as defined in the EPA SBIR Solicitation under which
           the awarded submitted its proposal, and the principal investigator is an employee of
           the firm and is currently available to perform the proposed work; and,
       5.	 The undersigned understands that will fully making a false statement to or concealing
           a material fact from EPA is a criminal offense (US Code, Title 18, Section 1001).



Authorized Company Officer:

Signature: _________________________________________                Date: _______________



Principal Investigator:

Signature: _________________________________________                Date: _______________




11-N-0199                                                                                         10
Attachment II             ORD Corrective Actions and Projected Completion Dates


Rec      OIG Recommendation                  Lead            ORD Corrective Action                    Planned
No.                                      Responsibility                                          Completion Date
                                                          ORD has already developed a          Prior to making
                                                          certification that was modeled       SBIR awards
                                                          after the National Science           resulting from the
 1    Add the certification statement      Assistant      Foundation (NSF) certification.      March 2012
      provided in Appendix A to the      Administrator    In 2010, we required the signed      solicitations and
      current requirements SBIR          for Research     certification for Phase 2            solicitations
      funding applicants must submit          and         contracts prior to award and at      thereafter.
      prior to award                     Development      the time of the final report. To
                                                          fully address the
                                                          recommendation, ORD will
                                                          also require this certification to
                                                          be signed for Phase 1 contracts
                                                          prior to award and at the time
                                                          of the final report.
      Require SBIR funding                 Assistant      ORD will develop a new               Final Reports issued
 2    recipients to submit the           Administrator    certification statement that will    resulting from the
      certification statement provided   for Research     be added to Phase 1 and 2            March 2012
      in Appendix B with their final          and         contracts. ORD will require          solicitation and
      reports                            Development      signed certifications by the         solicitations
                                                          awardees prior to their final        thereafter.
                                                          report.




11-N-0199                                                                                                        11
                                                                             Appendix D

                                    Distribution
Office of the Administrator
Assistant Administrator for Research and Development
Assistant Administrator for Administration and Resources Management
Agency Followup Official (the CFO)
Audit Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Audit Followup Coordinator, Office of Research and Development
Audit Followup Coordinator, Office of Administration and Resources Management
Audit Followup Coordinator, Office of Acquisition Management, Office of Administration
       and Resources Management




11-N-0199                                                                                12
